U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation


August 4, 2010

The Honorable Thomas E. Petri
Ranking Member, Subcommittee on Aviation
Committee on Transportation and Infrastructure
United States House of Representatives
Washington, DC 20515

Dear Representative Petri:

Thank you for your January 21, 2010, letter requesting that we examine the
approximately $5.1 million in costs associated with the Federal Aviation
Administration’s (FAA) December 2009 Air Traffic Organization (ATO) Managers
Conference in Atlanta, Georgia. FAA organized the conference to provide training to
managers on its new, 3-year labor agreement with the National Air Traffic Controllers
Association (NATCA). The new agreement, effective October 1, 2009, has an
estimated cost of approximately $670 million and includes significant changes in pay
and working conditions that impact about 15,700 controllers nationwide as well as
FAA management.

To ease implementation of the agreement, FAA held three, week-long conferences in
December 2009 for approximately 3,200 of its air traffic managers and frontline
supervisors at the Omni Hotel in Atlanta, Georgia. While the main reason for holding
the conferences was to train its managers and supervisors on the terms of the new
agreement, FAA stated it also planned to provide them with leadership techniques,
skill training, and tactics for a more positive working atmosphere as well as training
on FAA’s Safety Management System policies. FAA also planned to emphasize
managing employee performance and improving morale of FAA employees tasked
with managing air traffic.

Your letter noted that this type of training was needed. However, media coverage of
the conference raised questions about the appropriate use of valuable Government
resources. Accordingly, we reviewed the costs associated with the conference,
including (1) all expenses and estimates related to the event; (2) FAA’s adherence to
its acquisition guidelines and best practices; and (3) ways FAA could have minimized
or reduced total costs, which could also be applied to similar conferences and events.



CC-2010-023
                                                                                        2


To complete this review, we met with FAA officials to discuss the reasons and
planning for the conference and analyzed planning documents; reviewed accounting
records, invoices, and the contract with the Omni Hotel; and reviewed a random
sample of 96 travel vouchers of conference attendees to determine if charges adhered
to FAA and Federal travel policies.

Conference Costs Were In Line With Agency Estimates
Based on our review of FAA’s records, the total cost of the conference was
approximately $5 million, which is consistent with FAA’s original estimate. FAA’s
estimate included travel, per diem, and hotel costs as well as costs related to holding
the event. The conference costs were paid from FAA’s Operations account. As
shown in the figure below, most of the costs related to the event were travel costs (i.e.,
airfare, hotel rooms, per diem, and other incidental expenses). Travel costs averaged
approximately $1,300 per attendee. Based on the random sample of 96 travel
vouchers of conference attendees we examined, we did not identify any improper
employee charges billed to the Agency.

                    Figure. Cost Breakdown of the Conference
                        Expense Item               Associated Cost
                Travel and Room & Board                 $4,153,914
                Hotel Conference Expenses                $591,273
                Other FAA Costs                           $292,544
                  Total                                 $5,037,731
                Source: FAA

The $591,273 in hotel expenses includes charges that were not directly related to
room rentals. These included costs for hotel audio/visual equipment, two luncheons
per session, and refreshments during the morning and afternoon breaks for the
conference. Due to the size of the conference, the Omni Hotel provided the meeting
space free of charge and, under terms of the contract, provided one complimentary
evening reception during each of the weeks that a training session was held. The
reception, which was optional for conference attendees, included free food and non-
alcoholic drinks and featured a cash bar if attendees wished to purchase alcoholic
beverages. The other costs incurred by FAA include items outside of hotel and travel
expenses, such as event planning and logistics, printing attendees’ training materials,
reviewing and summarizing attendees’ evaluations, and arranging an advance visit to
the meeting site for conference organizers.




CC-2010-023
                                                                                                         3


FAA Followed Its Acquisition Guidelines and Best Practices When
Planning and Conducting the Conference
When planning conferences or seminars, Federal agencies are required to follow
General Services Administration (GSA) regulations. 1 However, in 1996 FAA was
exempted from most Federal Acquisitions Regulations, and the Agency has its own
guidance for planning conferences or other large events as part of its Acquisition
Management System (AMS). Our review found that FAA followed its AMS
guidance, Agency policies, and prior best practices when planning and conducting the
conference. These included the following:

    • The AMS requires that conference organizers within the ATO obtain approval
      from its finance and legal divisions before initiating a conference. Conference
      organizers received approval from the Chief Financial Officer on August 24, 2009,
      and from the Office of Chief Counsel on October 22, 2009.

    • Conference organizers began planning the conference in May 2009, well before an
      agreement was reached. According to FAA officials, conference planners were
      not sure when the agreement would be signed or when it would take effect, and the
      ATO wanted all its facility managers to be briefed on the contract by the end of
      2009.

    • Based on a similar FAA conference held in 2006, organizers had a process in
      place to solicit and evaluate multiple cities that could host the conference. This
      included criteria for determining the location of the conference, such as selecting
      from within the contiguous United States, having an airport hub, and ensuring
      sufficient hotel and meeting space to host the event. FAA considered 14 cities as
      the potential host city for the conference—5 met its requirements for further
      examination. Out of these five cities, Atlanta was judged to be the “best value” to
      FAA and provided the lowest costs in terms of travel, rooms, and per diem. Once
      Atlanta was selected, FAA considered four hotels to host the event. The Atlanta
      Omni Hotel was judged as the best value, based on criteria including total cost,
      sufficient rooms for attendees, and available conference space to properly
      accommodate the event.

    • There were two breaks per day at which refreshments (non-alcoholic) were
      provided at a cost of $232,000 (or approximately $24 per person per day).
      Employees were not required to reduce their per diem expenses by that amount
      because the costs were allowable under FAA’s AMS conference guidance. 2 In our
      opinion, they also appear to be reasonable.


1
    5 U.S.C. § 5707 (1975).
2
    FAA’s Acquisition Management System (AMS) Procurement Guidance: Section T3.2.2.5.h(1)(b), FAA Sponsored
    Conferences, Seminars, Ceremonies, and Workshops.


CC-2010-023
                                                                                                   4


FAA Explored Other Options When Planning the Conference but
Determined That They Would Be Ineffective
In an attempt to reduce costs, FAA evaluated several alternatives to hosting a
nationwide conference but determined that these were not viable. The alternatives
included:

    • Smaller Conferences: While FAA could have held smaller conferences at ATO
      regional service centers, organizers did not formally evaluate this option because
      they believed it would be too difficult to coordinate multiple locations instead of
      one site, and they wanted to ensure training consistency.

    • Video Conferencing: While video conferencing was one option, FAA officials
      noted that this option was not feasible because not all FAA’s facilities have video-
      conferencing capability. Further, those officials did not think that video
      conferencing would be effective for multiple days of training.

    • Using FAA Facilities: Under the AMS, FAA must consider utilizing Government
      space for conferences and similar events. 3 While FAA did consider using
      Government facilities, it determined that no space was large enough to
      accommodate the conference requirements.

    • On-Line Alternatives: FAA officials stated they never really considered
      providing the training using on-line resources or simply sending out PowerPoint
      slides because they did not consider those methods to be as effective as attending
      training in person. Those officials also stated that given the importance of the
      agreement, they wanted to ensure they provided effective training to air traffic
      managers.

There was, however, an opportunity for FAA to reduce the cost of the conference.
During each week of the conference, FAA provided two working luncheons that
featured speakers which served as additional training sessions. This type of luncheon
is common for Government conferences.             The cost of the luncheons was
approximately $198,000, or about $31 per person per day. Attendees were required to
reduce their per diem expenses by $13 per day (a total of approximately $83,000).
However, the actual cost of the luncheons was $115,000 more than what FAA
withheld from the attendees’ per diem. Eliminating the luncheons could have reduced
the total cost of the event by that amount.




3
    FAA’s Acquisition Management System (AMS) Procurement Guidance: Section T3.2.2.5.b, FAA Sponsored
    Conferences, Seminars, Ceremonies, and Workshops.


CC-2010-023
                                                                                      5


Conclusion
Air traffic controllers represent one of the largest unionized workforces in the Federal
Government. The new collective bargaining agreement between FAA and NATCA is
the product of years of negotiation and an important step in attempting to resolve past
differences between the Agency and the union. The new agreement also differs
considerably from the previous contract in that it includes new pay and benefit
provisions that are unique to this workforce. Given those factors, FAA believed that
it was necessary to provide in-depth training to its air traffic control managers to
ensure that the new agreement is implemented efficiently, uniformly, and within cost
estimates. Officials responsible for planning the events followed Agency guidance
and selected the “best value” when determining the city and venue for the event.
While there were some opportunities available to FAA that may have reduced the cost
of the event, FAA did have business reasons for not pursuing them.

Based on our findings, we are not making any recommendations to FAA. If I can
answer any questions or be of further assistance, please contact me at (202) 366-1959
or Matthew E. Hampton, Deputy Assistant Inspector General for Aviation and Special
Program Audits, at (202) 366-1987.


Sincerely,



Calvin L. Scovel III
Inspector General




CC-2010-023
